September 17, 2019

Honorable Scott S. Harris

Clerk of the Supreme Court
Supreme Court of the United States
1 First Street NE

Washington, DC 20543

RE: McLemore vy. City of Shoreline: Cause No. 19-202
Dear Mr. Harris:

Iam counsel of record for respondent, The City of Shoreline. A response to the petition for writ of
certiorari has been requested and is currently due October 15, 2019.

Pursuant to Rule 30.4, respondent requests an extension to November 15, 2019 to file a brief in
opposition. Counsel for petitioner David Iannotti has informed me that they have no objection to the
request.

The purpose of the request is to provide additional time to respond to the petition that has been
submitted to date. I anticipate that competing obligations, including filing a brief in the Washington
State Court of Appeals at the same time as the current matter, and fulfilling upcoming obligations on
behalf of the City of Shoreline, will impede my ability to prepare for and adequately respond to issues
raised in the petition within the normal time. The requested extension will provide sufficient time to
provide the Court with a thorough and helpful response.

Thank you for your consideration of this request.

Sincerely,

LP2WAN RobewA<,

Sarah Roberts

Shoreline Prosecuting Attorney
Counsel for Respondent
206-364-2965

cc: David Iannotti, Counsel of Record to Petitioner Solomon McLemore
